No. _ _ _ _ _ _ __

IN THE
SUPREME COURT OF THE UNITED STATES

KENDESIA JUINIZE MAY,
Petitioner
V.

UNITED STATES OF AMERICA
Respondent
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached Petition for a Writ of Certiorari
without prepayment of costs and to proceed in lonna pauperis. In support
petitioner respectfully represents
1.
That he has not previously been granted leave to proceed in forma pauperis
in any other court.

2.
That petitioner's affidavit or declaration is not attached because the court
below appointed counsel in the current proceeding, and a copy of the order of
appointment is appended.

Case 1:19-cr-00007-LMB Document 141 Filed 06/24/19 Page 1 of 2 PageiD# 1192

FILED: June 24, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4454
(1: 19-cr-00007-LMB-1)

UNITED STATES OF AMERICA
Plaintiff- Appellee

v.
KENDESIA JUINIZE MAY, a/k/a Red, a/k/a Reds
Defendant- Appellant

ORDER

The court appoints Mark Steven Thrash to represent Kendesia Juinize May.
Counsel is referred to the CJA Payment Memorandum and the CJA eVoucher
Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24

Case 1:19-cr-00007-LMB Document 141 Filed 06/24/19 Page 2 of 2 PageiD# 1193

voucher for transcript payment. Counsel must also submit a Transcript Order Form
to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
All case filings must be made using the court's Electronic Case Filing system
(CM/ECF). Counsel not yet registered for electronic filing should proceed to the
court's web site to register as an ECF filer. See Required Steps for Registration as

an ECF Filer.
For the Court--By Direction

Is/ Patricia S. Connor, Clerk

